<html>
<title> - THE IMPORTANCE OF U.S. ASSISTANCE TO CENTRAL AMERICA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


          THE IMPORTANCE OF U.S. ASSISTANCE TO CENTRAL AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             April 10, 2019
                               __________

                           Serial No. 116-27
                               __________

        Printed for the use of the Committee on Foreign Affairs

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
35-969PDF                 WASHINGTON : 2019                       
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia	     STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida 	     JOE WILSON, South Carolina
KAREN BASS, California	             SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinoi
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York	     BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota	     JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania	     GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas
                                                                                                             
                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENT

Prepared statement submitted from Chairman Engel.................     2

                               WITNESSES

Jacobson, The Honorable Roberta, Former U.S. Ambassador to Mexico 
  and Assistant Secretary of State for Western Hemisphere Affairs     8
Kerlikowske, The Honorable R. Gil, Distinguished Visiting Fellow, 
  Professor of the Practice in Criminology and Criminal Justice, 
  Northeastern University, Former Commissioner of U.S. Customs 
  and Border Protection, Director of the Office of National Drug 
  Control Policy, and Chief of Police in Seattle, Washington.....    21
Noriega, The Honorable Roger, Visiting Fellow, American 
  Enterprise Institute, Former U.S. Ambassador to the 
  Organization of American States and Assistant Secretary of 
  State for Western Hemisphere Affairs...........................    26

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Plan International information submitted for the record from 
  Representative Cicilline.......................................    49
New York Times article submitted for the record from 
  Representative Cicilline.......................................    51

                                APPENDIX

Hearing Notice...................................................    59
Hearing Minutes..................................................    60
Hearing Attendance...............................................    61

  ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD FROM COMMITTEE MEMBERS

CWS statement submitted for the record from Chairman Engel.......    62
Statement submitted for the record from Representative Rooney....    63
Statement submitted for the record from Representative Sires.....    64
Questions submitted for the record from Representative Sires.....    65
Questions submitted for the record from Representative Smith.....    67
Questions submitted for the record from Representative Spanberger    69
Questions submitted for the record from Representative Wagner....    70
Questions submitted for the record from Representative Houlahan..    72
Questions submitted for the record from Representative Guest.....    75

 
          THE IMPORTANCE OF U.S. ASSISTANCE TO CENTRAL AMERICA

                       Wednesday, April 10, 2019

                        House of Representatives

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 9:39 a.m., in 
Room 2172 Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Chairman Engel. The committee will come to order. Without 
objection, all members will have 5 days to submit statements, 
extraneous material, and questions for the record, subject to 
the length limitation in the rules.
    To our witnesses, welcome to the Foreign Affairs Committee. 
Thank you for your time and expertise this morning, and welcome 
to the members of the public and the press as well.
    We are holding this hearing today for one reason, because 
President Trump cut the very funding that would reduce the flow 
of immigrants from Central America which he says concerns him 
so much.
    We need to shine a light on this unwise decision and I look 
forward to our witness testimony. Because we are short on time 
with the upcoming vote series, I am going to enter my full 
statement into the record.
    But first I want to thank our ranking member, Mr. McCaul of 
Texas. His urgency and leadership on this issue helped put it 
at the top of the committee's agenda including this very timely 
hearing.
    So before I introduce our witnesses I would like to yield 
to him for his opening comments.
    [The prepared statement of Mr. Engel follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. McCaul. Thank you, Mr. Chairman.
    The Northern Triangle countries of Central America continue 
to face serious economic and security challenges that are 
threatening the region's stability and driving illegal 
immigration to the United States.
    This migration from El Salvador, Guatemala, and Honduras is 
exacerbating the crisis on our southern border and straining 
the capacity of DHS's Customs and Border Protection.
    As a former chairman of the Homeland Security Committee, I 
understand the unique challenges we face at our border and am 
committed to using all tools at our disposal to address this 
crisis.
    One of the most effective tools we have for responding to 
this is targeted foreign assistance to Central America. This 
assistance supports the Northern Triangle countries' efforts to 
combat transnational criminal organizations like MS-13 that are 
involved in the trafficking of persons and drugs.
    U.S. assistance also promotes economic prosperity and 
strengthens democratic institutions and rule of law. This 
assistance merges as security and economic support to create 
stability in the region and address the root causes of illegal 
immigration.
    The Northern Triangle countries have also responded with 
their own initiative called the Alliance for Prosperity to 
complement U.S. assistance, demonstrating their commitment to 
addressing their own challenges.
    Our assistance is having positive results. The chairman and 
I went down there to El Salvador. We saw it throughout the 
region. USAID programs are increasing, agriculture production 
is increasing household incomes, creating jobs--78,000 jobs in 
Guatemala alone.
    Other U.S. assistance programs funded through State's 
Bureau of International Narcotics and Law Enforcement directly 
support police enforcement operations including those by vetted 
units like the FBI's transnational anti-gang tag units and 
DHS's transnational criminal investigation units.
    Both have contributed to the indictment of hundreds of MS-
13 gang members, the prosecution of criminal organizations, and 
collection of biometric data in individuals suspected of 
terrorism, violent crime, and tracking through BITMAP.
    Last month, I traveled again with Chairman Engel to El 
Salvador and we witnessed firsthand how our assistance is 
driving at-risk youths away from criminal gangs like MS-13 by 
providing technical skills and employment opportunities.
    During our visit, we had the pleasure of meeting with the 
president-elect of El Salvador, who expressed his unwavering 
commitment to working with the United States in every way 
possible to address the migration crisis.
    He also explained China's efforts to increase its presence 
in his country but he favors closer engagement with the United 
States. Cutting this aid, in my judgment, would create a void 
that China is prepared to fill, and we heard that from the 
president of El Salvador.
    As a representative from Texas, this crisis on the border 
is taking place in my back yard and I share the president's 
frustration.
    However, I acknowledge that more work and time is needed to 
fully address Central America's challenges and the continued 
migration flows to the United States.
    I believe that the decision to cut funding will make the 
economic and security situations in Central America worse, not 
better, triggering more migration, not less, to the United 
States.
    I also recognize that Congress has an oversight role and I 
made this clear by establishing a process which clarifies that 
we have the criteria to address 16 congressional concerns 
related to improving border security, anti-corruption, and 
human rights.
    In short, our trip to Latin America was significant, 
meeting with the president of Colombia, meeting with the 
president of El Salvador.
    I think the chairman and I came back realizing these 
programs are highly effective and that cutting these programs 
would be counterproductive and make the situation worse, not 
better.
    And so I want to thank the witnesses for being here today. 
I want to thank the chairman for holding this hearing at my 
request after we came back.
    And I will just anecdotally just share the story of the 
president of El Salvador. We were there the day the president 
decided to cut the foreign aid and it was quite a shock to an 
ally, someone who is pro-United States, wants to be our ally.
    I think it is the wrong message at the wrong time and I 
think this is ill-advised, it is reckless, and I look forward 
to the testimony.
    And I yield back.
    Chairman Engel. The gentleman yields back. Thank you, Mr. 
McCaul, and thank you for your leadership.
    We are largely holding this hearing this morning because of 
you, because we were so shocked sitting there in El Salvador at 
a time when the edicts came down to cut foreign aid.
    It is just so illogical that it was the opposite thing that 
we should do, not cut aid. We should improve aid. If we want to 
make situations where people do not come to the United States 
then we need to help them in their own country.
    It does not do anything except make the problem worse by 
cutting aid. More people will wind up coming to this country 
and the President says that is not what he wants. Well, 
something you have to figure out is if the cure is worse than 
the problem, and I certainly think it is.
    So I want to thank you, Mr. McCaul, and we said we would do 
a hearing as soon as we could, and I think this is record time 
here. But it is largely because of you, and I thank you for it.
    This morning, we are joined by a distinguished panel. I am 
pleased first to welcome my friend, Ambassador Roberta 
Jacobson. Roberta and I have worked together for many years, 
and she is truly one of the best diplomats of our time.
    Roberta, it is great to have you back. The Ambassador is a 
career State Department official, most recently serving as U.S. 
Ambassador to Mexico from 2016 to 2018.
    Ambassador Jacobson previously served as assistant 
secretary of State for Western Hemisphere Affairs. So welcome, 
Roberta.
    Mr. Gil Kerlikowske is a distinguished visiting fellow and 
professor from Northeastern University. From 2014 to 2017, Mr. 
Kerlikowske served as commissioner of U.S. Customs and Border 
Protection.
    Prior to his appointment to CBP, he served as the director 
of the White House Office of National Drug Control Policy from 
2009 to 2014 and before that was the chief of police of 
Seattle, Washington.
    Ambassador Roger Noriega is a visiting fellow at the 
American Enterprise Institute. Ambassador Noriega previously 
served as assistant secretary of State for Western Hemisphere 
affairs as well as U.S. Ambassador to the OAS from 2001 to 
2005. He has been testifying for many, many years at this 
committee and we thank you for it, Ambassador.
    And what I am going to do now is I will recognize our 
witnesses for 5 minutes each to summarize your testimony and we 
will start with Ambassador Jacobson.

 STATEMENT OF THE HONORABLE MS. ROBERTA JACOBSON, FORMER U.S. 
   AMBASSADOR TO MEXICO AND ASSISTANT SECRETARY OF STATE FOR 
                   WESTERN HEMISPHERE AFFAIRS

    Ms. Jacobson. Thank you, Chairman Engel and Ranking Member 
McCaul and members of the this committee. It is a pleasure to 
appear before you today for the first time as a private 
citizen. It is a different feeling.
    But mostly I would like to thank you all for the interest 
that you have shown in the subject that we are going to discuss 
today and to which I have devoted my professional career.
    I have a long paragraph about some of the issues that drive 
migration in Central America but I think most of you know 
those, and I will let my written testimony stand on that.
    But I will say that because of both economic and security 
issues in the Northern Triangle countries, decisions by Central 
American migrants to leave their countries and attempt to reach 
the United States often to join family members who are already 
here, even when they are taken by family units with young 
children, can be seen as a rational decision when they are 
confronted with extreme poverty and violence.
    Unfortunately, migration policy by this administration 
appears based on the assumption that if one makes things 
difficult enough for migrants they will not come.
    Whether zero tolerance, family separation, threats to 
cutoff aid or close the U.S.-Mexican border, such policies are 
wrong headed, needlessly cruel, and, frankly, all but useless 
as long as the root causes of migration remain unaddressed.
    There is often a misunderstanding of the purpose of U.S. 
aid, not by this committee but by our public. It has always 
been intended to advance U.S. interests and objectives.
    Indeed, within the assistance that the administration 
intends to stop are programs carried out by the Department of 
Homeland Security, the Department of Justice, Treasury, and on 
many issues directly relevant to our national security and 
safety.
    It is also important to recognize that the vast majority of 
our assistance to the Northern Triangle and Mexico does not go 
directly to governments.
    It is projectized, as we say, or destined for 
nongovernmental organizations or very specific projects or 
equipments if within government and designed in coordination 
with the United States and only for the purpose intended.
    Thus, any threat to cut assistance can be seen as reducing 
support for our own objectives, and the ranking member 
mentioned both the TAG program, the FBI's anti-gang program, 
and our biometric programs which do just that.
    So the fact is, as a former colleague of mine has said, if 
you like the current migration crisis you ain't seen nothing 
yet, because if aid is cutoff to the Northern Triangle it is 
almost guaranteed that we will see more, not fewer, migrants 
attempting to enter the U.S. and they will be poorer, more 
desperate, and victims of greater violence than they are with 
our aid.
    All of the programs that are pending cuts right now have 
basically just gotten underway in missions where we had 
downsized or eliminated our aid mission.
    So if you cut aid for Fiscal Year 2017 or 2018, you would 
never really have given an aggressive aid program, as was 
developed at the end of the last administration, a chance to be 
implemented.
    And foreign officials in these countries are confused and 
frustrated with the fickle and inconsistent nature of our 
policy. The Honduran government expressed irritation with the 
announced cutoff and Mexico's national migration commissioner 
called it schizophrenic.
    But there are other reasons it is in our interest to 
continue and improve our assistance. It gives us a seat at the 
table to leverage decisions taken by those governments on 
issues of direct relevance to national security and because if 
others become the partner of choice for these hemispheric 
countries, they will do so without any of the conditions or 
policy goals that we require of aid recipients.
    So, in closing, I would just say that humane policies that 
uphold American values do not mean letting in every petitioner. 
Economic migrants do not qualify for asylum and they should 
understand that for them the perilous journey north will 
ultimately be fruitful.
    But returning migrants to their home countries more 
quickly, while usually one of the most effective ways to 
transmit that the journey is for naught requires the 
cooperation of those governments.
    Here, too, our constantly changing policy and blame game 
makes that cooperation more difficult. So I look forward to 
answering any questions the committee may have about the 
importance of maintaining this assistance because it is in our 
own national interest.
    Thank you very much.
    [The prepared statement of Ms. Jacobson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you, Ambassador.
    Mr. Kerlikowske.

 STATEMENT OF THE HONORABLE R. GIL KERLIKOWSKE, DISTINGUISHED 
 VISITING FELLOW, PROFESSOR OF THE PRACTICE IN CRIMINOLOGY AND 
CRIMINAL JUSTICE, NORTHEASTERN UNIVERSITY, FORMER COMMISSIONER 
 OF U.S. CUSTOMS AND BORDER PROTECTION, DIRECTOR OF THE OFFICE 
    OF NATIONAL DRUG CONTROL POLICY, AND CHIEF OF POLICE IN 
                      SEATTLE, WASHINGTON

    Mr. Kerlikowske. Good morning, Chairman and Ranking Member 
McCaul and the distinguished. It is a pleasure also to be here 
for the first time as a citizen, although I certainly miss the 
government service and the work that was done.
    When I became commissioner of CBP, I was the only confirmed 
commissioner for President Obama's 8 years in March 2014 within 
a week I became intimately familiar with what a surge looks 
like, and certainly, the ranking member was there many times 
with me in McAllen, Texas, which was the primary source of 
68,000 unaccompanied children and family units coming into the 
United States.
    I praise then and I praise now the work of the United 
States Border Patrol. The men and women and the Border Patrol 
really with very little assistance from other entities of the 
Federal Government were able to feed, to clothe, to hold 
people, and for all of us that have been in those Border Patrol 
stations you know they are designed for a very short period of 
time, and yet some of this went on for six and seven and 8 days 
with people being there.
    I also recognize clearly that we did not have the resources 
to deal with this. The Border Patrol had recognized over the 
last 2 years that this surge was increased or that these 
numbers were increasing. But we did not have any of the support 
and backup.
    So by the time that surge ended at the end of that summer, 
it was very helpful to have purchased a large warehouse, 
certainly not the best facility for holding people but, 
certainly, something that was needed.
    It was important to secure contracts for food, for health 
care, for security so that Border Patrol agents could be 
returned back to the border rather than doing some of that 
work.
    But I also saw the humanitarian efforts of those agents as 
they brought clothing in from their own children to help take 
care of some of these--of some of these kids.
    Well, I have spent a career in law enforcement and I am 
intimately familiar with what are the important parts of safety 
and security, and when people feel safe and secure, if they 
have a trust in government just as in the United States, well, 
the people in Central America are not going to want to make the 
very dangerous trip.
    And we worked hard with the State Department to do the 
advertisements in a variety of ways in those three Central 
American countries to say your chances of entering the United 
States without being detained are minimal but the route and the 
trek would be incredibly dangerous not only for assault, for 
robbery, for homicide, for sexual assault.
    And we did a lot of advertising in a variety of ways and it 
had very little impact because, as Ambassador Jacobson had 
mentioned also, when you are facing economic problems of great 
importance to people there, you are facing the dangers, and you 
are also facing that inability to get your children a better 
quality of life, you are willing to make that dangerous trek.
    That is why I am such a strong proponent of what we can do. 
We saw the Plan Colombia reduce cocaine. We saw Merida have 
significant impacts on the number of people leaving Mexico to 
come into the United States, and these new programs that are 
really just, in many ways, in their infancy and the three 
Central American countries need our support and they need our 
recognition.
    There is no one single answer to the crisis that is now 
occurring on the southern border. But, certainly, eliminating 
foreign aid would be, in my opinion, huge mistake.
    Thank you.
    [The prepared statement of Mr. Kerlikowske follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you very much.
    Ambassador Noriega.

  STATEMENT OF THE HONORABLE ROGER NORIEGA, VISITING FELLOW, 
 AMERICAN ENTERPRISE INSTITUTE, FORMER U.S. AMBASSADOR TO THE 
  ORGANIZATION OF AMERICAN STATES AND ASSISTANT SECRETARY OF 
              STATE FOR WESTERN HEMISPHERE AFFAIRS

    Mr. Noriega. Thank you very much. Good morning, Mr. 
Chairman and Ranking Member McCall, other distinguished members 
of the committee.
    Mr. Chairman, President Trump's decision to cut U.S. aid to 
Central America's Northern Triangle countries apparently was a 
reaction to data showing over 90,000 inbound migrants in March, 
up dramatically from 70,000 in February.
    The surge is coming from countries where the police are 
outgunned by gangs, where local authorities are bullied or 
bought off by narcotraffickers, and where the jobs are 
destroyed by flagging economies and costly 2-year drought.
    It is not just about how many are arriving but who is 
arriving and that complicates enforcement measures.
    For example, there is a 370 percent increase in the number 
of people arriving in family units in March 2019 compared to 
last year. The prevalence of unaccompanied minors or those 
applying for political asylum is higher, too.
    There is also a great increase in the number arriving in 
larger groups. It is clear that criminal smugglers are gaming 
our system.
    They know that if immigrants arrive in groups of 70 or 
more, border authorities are quickly overwhelmed. They know too 
that there is a backlog of 850,000 asylum claims that are 
pending so that those claims will take time and all of these 
factors increase the likelihood of would-be migrants being 
released into the United States.
    So the surge is not just about the conditions back home. It 
has a lot to do with the system that they encounter when they 
reach our border.
    Nevertheless, treating the root causes of illegal migration 
and attacking immigrant smuggling networks can make a 
difference in the challenge at the border more manageable.
    Mr. Chairman, before President Trump's announcement, the 
United States planned to spend about $450 million this year in 
the Northern Triangle countries. That sum is less than one-
tenth of what taxpayers will spend this year to deploy border 
patrol and military units on the Southwest border.
    But $450 million is still a lot of money and since 2016 we 
spent about $2.6 billion on programs in these countries. But 
the people keep coming.
    So it is fair to ask if we are getting an adequate return 
on our investment or if we are improving the conditions of 
those people who are fleeing Central America. I believe we are.
    In at-risk communities in Honduras, for example, policing 
and youth programs managed by USAID and the State Department's 
INL Bureau are credited with cutting homicide rates in half 
since 2011 in Honduras with dramatic improvements in the major 
city of San Pedro Sula.
    In Guatemala, USAID has supported anti-extortion 
initiatives of local prosecutors. These efforts have led to 
dramatic increases in the number of successful prosecutions for 
extortion, jumping from 41 to 300 in a 3-year period.
    USAID's partnership with INL supports El Salvador's 
security efforts including--I am sorry, leading to a 45 percent 
reduction in the number of homicides in targeted 
municipalities.
    In neighbourhoods with USAID programs, 51 percent fewer 
residents reported incidents of extortion, blackmail, or 
murders. INL supports Operation Regional Shield, which has led 
to the arrests of nearly 4,000 gang members in the United 
States and in the region, produced charges against nearly 300 
gang members in Guatemala, for example, and helped dismantle 
gang cliques in El Salvador.
    USAID also addresses underlying economic instability due to 
USAID programs supporting agriculture and natural resources 
management. Impoverished rural areas in Guatemala and elsewhere 
have seen more jobs and higher salaries.
    In El Salvador, USAID programs help micro, small, and 
medium enterprises create more jobs and increase productivity.
    Mr. Chairman, the American people should know that these 
USAID dollars do not go to foreign governments. They support 
programs that are earmarked by this Congress, monitored by this 
committee, and designed and implemented by State Department and 
USAID professionals on the front lines in these countries.
    Congress has a pivotal role playing--to play in ensuring 
robust funding for foreign assistance programs that serve our 
national security interests. It is also not just about aid.
    Ten years ago, the United States advocated the CAFTA--the 
Central American Free Trade Agreement--to secure market access 
and fuel long-term economic growth.
    The United States promoted this free trade agreement with 
the promise of growing market for American exports and mutually 
beneficial investment opportunities.
    However, it is fair to say that the Northern Triangle 
countries are less competitive than they were before NAFTA. We 
have to do better. U.S. stakeholders should work to restore a 
broad bipartisan consensus behind free market policies, 
representative democracy, and the rule of law as the engines of 
growth in Central America.
    Mr. Chairman, much of the damage that we see to the 
institutions in Central America is driven by narcotrafficking. 
It is fuelled by demand for illicit narcotics in this country.
    I do not think there is a leader in the region who would 
not trade all of our aid dollars for a reduction in the demand 
for illicit drugs that decimates their institutions and 
undermines their ability to grow as good partners with the 
United States.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Noriega follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you. Thanks to all three of you. I 
will now recognize my members for 5 minutes each to ask 
questions, starting with myself. All time yielded is only for 
the purpose of questioning the witnesses.
    So let me start. Ambassador Jacobson, I was struck when I 
read your testimony by your discussion of China and to the 
extent in which the Administration seems to be opening the door 
to the Chinese and other global powers who obviously do not 
share our values by cutting off U.S. assistance to the Northern 
Triangle countries.
    As you know, Guatemala and Honduras are among the 17 
countries in the world that maintain a formal diplomatic 
relationship with Taiwan over China.
    Just last year, El Salvador broke relations with Taiwan and 
recognized China. I had an excellent meeting with Salvadoran 
President-Elect Bukele when I was in the region and, as you may 
know, he has suggested that he will take a fresh look at his 
country's policy toward China when he takes office.
    I can only imagine what the president-elect and leaders in 
Guatemala and Honduras are thinking after President Trump 
announced that he would cutoff aid.
    So how concerned are you that cutting off U.S. assistance 
to Guatemala, Honduras, and El Salvador will allow China to 
fill the void, and second, do you think Russia and other 
nefarious actors will also deepen their engagement with these 
countries as the Trump Administration disengages? And I hope it 
is not too late for the president to reverse his policy on 
this.
    Ms. Jacobson. Thank you, Mr. Chairman.
    I am quite concerned about the role that China plays in the 
hemisphere. I think what we have seen and what we saw in South 
America in particular during the commodities boom in an earlier 
decade was China was extremely engaged as a purchaser of those 
commodities and that fuelled growth in many of the countries in 
the region and there is nothing wrong with that.
    So we need to distinguish between economic interaction and 
trade on a level playing field, which I think is critical, and 
involvement in infrastructure projects or the new Chinese 
Development Bank or other things that I think come with serious 
harm, potentially, to these countries and certainly could 
result in what our military calls becoming partners of choice, 
which is not something we want to see.
    I am concerned about it because I think they do not bring 
the same values, obviously. But I am also concerned about it 
because I think we are leaving a vacuum through more than just 
our aid.
    The Chinese have had the Confucius Centers to teach Chinese 
all over the hemisphere while we have, frankly, reduced 
engagement in our binational centers and in teaching English. 
That is a way of projecting power and gaining influence. The 
Chinese have also always made sure they have diplomatic 
representation in as many countries as possible.
    You said--you talked about El Salvador changing from 
recognizing Taiwan. I think the recognition question is less 
important than do we make sure to have a robust presence 
diplomatically, economically, as well as in assistance and in 
financing so that the countries will see us as the partner of 
choice, which is their preference, on the whole.
    Most countries in the region would prefer to work with us. 
So I am concerned about that. And in general, China has been an 
economic partner, not a military partner. But that, too, could 
change.
    In the case of Russia, I do have concerns they tend to 
focus more on places like Nicaragua and Venezuela than on the 
rest of Central America. But I do think that there are efforts 
by the Russians to, if you will, poke us in the eye in our own 
hemisphere that we need to be aware of.
    Chairman Engel. Thank you.
    Mr. Kerlikowske, I think there is a misperception that U.S. 
assistance to the Northern Triangle only comes directly from 
the State Department and USAID.
    And so I appreciate you outlining in your testimony the 
extent to which U.S. law enforcement agencies like the FBI and 
DEA receive funding from the State Department to operate in the 
region.
    During our visit to El Salvador, I had the opportunity to 
be briefed, as did Mr. McCaul, by the FBI's transnational anti-
gang task force, which trains local law enforcement and then 
works closely with them in investigating and taking down gang 
leadership structures in the U.S. and Central America.
    We thought it was truly an impressive effort by the FBI and 
our local partners and their similar task forces in Guatemala 
and Honduras as well.
    So these task forces are funded by the State Department and 
their work will come to an end if the Administration moves 
forward with its ill-advised plan to cutoff aid to the region.
    Let me ask you this as a former police chief and head of 
CBP. Can you please give us a sense of what ending these anti-
gang task forces will mean not only for Central America but 
also for communities in the United States and MS-13 in the 
United States as well?
    So what will be the real-life impact on our constituents if 
we were to cutoff aid?
    Mr. Kerlikowske. Thank you, Chairman. I think there are 
several things that really come into play here. One is that 
people, you know, need to recognize that MS-13 has been around 
for well over 30 years and the beginnings of MS-13, of course, 
resulted--were a result of us bringing people that had been 
arrested, that were gang members, predominantly in Southern 
California to El Salvador without not even notification, let 
along any assistance and, literally, dumping thousands of 
criminals into that country that did not have the capacity.
    So it shouldn't come as a surprise that MS-13 grew rapidly 
there. Since that time, though, I think we have become a lot 
smarter. The FBI task force that you mentioned is just one 
component.
    The ILEA--the International Law Enforcement Training 
Center--in El Salvador is another example where law enforcement 
professionals who have been vetted or approved attend that 
training to improve their forensics, their money laundering, 
their investigative skills--all of the things that help.
    So it is not just that ability to identify gang members or 
criminals. It's also working hard to choke off the money that 
supplies these gang members and when that happens we see some 
pretty positive results.
    We also see a level of cooperation and integration of 
information being exchanged among law enforcement agencies at 
the Federal level but also that information that is 
communicated to us is also passed on to our counterparts at the 
State and local level, thereby making counties and cities 
especially along the border and the United States safer.
    So it would be--disastrous is probably not too strong a 
word--to see those programs cut.
    Chairman Engel. Thank you.
    Mr. McCaul?
    Mr. McCaul. Thank you, Mr. Chairman. Thanks for holding 
this hearing. Our trip to Latin America was very insightful at 
a very critical time. I mean, we do have a crisis at the 
border. A hundred thousand per month.
    But I think it is kind of a two-front war approach, if you 
will. I mean, Administrator Kerlikowske, you and I worked on 
border patrol issues for a long time and Roberta--Ambassador--
we dealt with the State Department--State and law enforcement 
working together. That is always kind of the key, I have always 
thought.
    And, you know, the chairman and I had actually talked about 
before this trip and before the president's announcement sort 
of putting the Central American Regional Security Initiative on 
steroids.
    Now, we saw Plan Colombia work. We saw Merida, you know, 
Ambassador Jacobson, have an impact and I do not think you can 
ignore the root causes of the problem.
    You can be reactionary and build a wall and stop people 
from coming into the United States and we can have law 
enforcement and border patrol, which is essential.
    But you also have to deal with the root cause of the 
problem. What is causing this phenomena? I mean, in my--when I 
was a Federal prosecutor and chairman of Homeland, I mean, it 
went from the 20-year-old male trying to smuggle drugs, maybe 
get a job, to these family units. What causes a family to want 
to leave their country and come up the long dangerous journey?
    And I think a lot of it has to do with conditions--poverty, 
violence, gangs--causes this impact. And I think to the 
chairman's point, if we withdraw from the region, who's going 
to fill it?
    China. We know El Salvador, the president said--the 
incoming president said the current president wanted to invite 
China to take two of their ports, bring their workers in, take 
over, and bring their 5G into El Salvador. That is a takeover.
    I think this assistance, USAID--we saw at-risk youths that 
were targeted that could go to MS-13 get trained to find a job 
instead.
    We saw the INL program, law enforcement. This is what--from 
a law enforcement guy, is most deeply disturbing is that we are 
going to cutoff our international law enforcement apparatus in 
Central America so FBI and DEA are going to be shut down.
    They will not be able to conduct investigations where they 
have arrested and indicted MS-13. How does that make the 
situation better?
    If we cut that--if we cut that program, cut it off at is 
knees, how does that make us safer as a nation? I think it 
makes it more dangerous as a Nation.
    And I--maybe I am pontificating. But, you know, as Roberta 
knows, I am very passionate about Latin America. I think we 
ignored Latin America for a long time. We got a crisis in 
Venezuela. We also have a historic opportunity there as well. 
We got to play this one right.
    But I think this decision, while it does sound appealing, 
you are sending all these people--just cutoff foreign 
assistance. I think as a policymaker we have to look at what 
the consequences will be. What is in reality going to happen if 
we cut all foreign assistance off to these countries?
    So I leave that to--as a question, I guess, to the three of 
you, if you would not mind responding to that.
    Ms. Jacobson. Ranking Member McCaul, thank you, and I think 
you and I have worked together on this issue for quite a long 
time in Mexico, in Central America, and, frankly, Gil 
Kerlikowske was one of the finest public servants I have worked 
with. We really were a team when we worked on these issues.
    And since I worked for Roger I know that we worked on these 
very same issues as well across the aisle as well as across 
administrations.
    You have--one of the things that really worries me about 
reduction of aid is you have governments in these countries of 
varying qualities for partnership and I am the first to admit 
that.
    There are deep and abiding corruption issues. But with our 
aid comes great pressure to improve transparency and make sure 
that government resources are spent on what they should be and 
go to the people and less gets siphoned off not of our aid 
money because we are careful with that, but of their own 
resources.
    We also work with the private sector and one of the most 
successful things that we have done over the last couple of 
years is create matching programs where the local private 
sector puts in at least one dollar for every dollar the U.S. 
Government puts in.
    What happens to those programs. They won't sustain them. 
The local private sectors will not sustain those programs 
without our government being part of them. Those have been 
critical as well.
    So the multiplier effect of a cutoff of aid because of the 
local governments not doing what they should with the money and 
the local private sector not partnering with us is really quite 
dramatic.
    Mr. Noriega. May I jump in for 30 seconds on this score and 
address several of the issues?
    The Chinese could replace all of this aid with the stroke 
of a pen and they will send that message to the leaders in the 
region that they are--they are their partners.
    The Chinese have a very mercantile vision of the world--how 
they do business. They will not, for example, when they are 
investing to the extent they do in a region have the same 
commitment we have in terms of environment or workers' rights--
labor rights that are instilled in the CAFTA agreement.
    They will not certainly share our interests and to 
inculcate a free market private sector-led economy, and we talk 
about these countries now as recipients of aid as if they were 
mendicant nations.
    But in point of fact, 10 years ago we were talking about 
them as economic partners, a natural market for our goods--a 
place where our companies could invest and make a fair return 
on that investment, build a safer neighborhood as part of an 
economic community.
    We have lost that in large measure because of the 
institutions of Central America being destroyed by 
transnational organized crime, caught in a vice between Mexico 
where they were making at a certain point effective efforts 
against drug trafficking, and Colombia in Plan Colombia, which 
pushed these transnational organized crime groups--these dark 
trafficking groups into fertile territory where these small--
relatively small countries did not have the capacity to resist, 
do not have the strong democratic institutions, do not have the 
strong democratic institutions, do not have the accountability 
and the commitment to the rule of law to fend off this threat.
    And so the demand for illegal drugs from this country has 
destroyed those countries and we have a moral responsibility, I 
believe, to help them pull out of the--pull out of the dive 
caused by that institutional destruction.
    We should also think about the--what we can do to restore 
the idea of a productive economy. Not just deal with them as 
these poor desperate countries that need our help, but insist 
that they reform their economies, insist that they deal with 
corruption, insist that they deal with the ability of companies 
to invest or trade and do so as a good partner.
    The announcement that we were summarily and arbitrarily 
cutting off aid does not help any to these leaders be a friend 
of the United States. It embarrasses them before their own 
people. It undermines the confidence that we need to have as 
partners.
    Mr. McCaul. Mr. Kerlikowske?
    Mr. Kerlikowske. Just one quick comment. I would also tell 
you that although our demand for drugs is certainly a driver, 
every one of these countries has a drug problem within the 
countries and they have recognized that, whether it is Mexico 
under the former first lady, Margarita Zavala, and many other 
countries.
    So the problem of the drug trafficking does not exist just 
here and fund the narcotraffickers. They also have their own 
drug issues and they need to be addressed and we can help them 
because in many ways we have made some progress on our own 
demand.
    Mr. McCaul. Can I just ask you, you as a CBP guy and we 
have known each other for a long time, what--if we cutoff INL--
the International Law Enforcement--if we cutoff the FBI and 
DEA's operations in Central America to investigate, arrest, and 
indict MS-13, I mean, this is the--we can talk about USAID but 
the INL piece under State, what are the consequences of that?
    Mr. Kerlikowske. So all of these--all of these U.S. law 
enforcement boots on the ground in those countries and the 
liaisons are covered under, one, the auspices of the State 
Department and as a result of that funding.
    I do not think there is any of the boots on the ground, 
those working law enforcement professionals that are in there 
and doing that work--I do not think a single one would tell you 
that it is not worthwhile, that they haven't seen progress made 
and that the work they're doing there not only improves the 
safety and security in that country, it really makes our own 
cities and counties safer.
    Mr. McCaul. And the chairman and I met with them and saw it 
firsthand, and I yield back.
    Chairman Engel. Thank you, Mr. McCaul.
    Mr. Sires, the chairman of our Western Hemisphere 
Subcommittee.
    Mr. Sires. Thank you, Chairman, and thank you, Mr. McCaul. 
First, let me say I commend the ranking member for recognizing 
the problem of the cutting of the funds.
    I represent a district that is about 55 to 60 percent 
Hispanic. A lot of those Hispanics are from the Northern 
Triangle.
    I get firsthand information on what is going on in these 
countries and what we have here today is the result of this 
country not paying attention to this region for many, many 
administrations.
    I listened to you very closely, Mr. Kerlikowske, because 
you are the first one that has come to this committee and 
recognized the fact that for about 10 years or 11 years we were 
dumping these MS-13 members in these countries and we were not 
even notifying the countries that these people were members of 
a gang and the reason they were there--we were just dumping 
them.
    So what we have today here is a result of our policies over 
so many years and now we have a situation where they want to 
cut the aid, in my view, for a political purpose to continue 
stirring this whole idea about immigrants.
    Ambassador, I was happy to hear that you mentioned Russia 
in this area, how they want to stir up. I believe--and I told 
this to the secretary of State that part of the problem in 
Venezuela, part of the problem in Nicaragua, part of this 
problem is in an effort to destabilize our back yard. It is an 
effort to destabilize the Western Hemisphere, because this does 
not happen in a vacuum.
    This is all well thought out, in my view, and this idea 
that we react by cutting some of the best programs that are 
most effective--I was there last year. I was there with Ileana 
Ros-Lehtinen, who was a promoter of these programs, and we saw 
it first hand. We went from one program to the other and they 
were very effective.
    But to have a situation now where you are going to just 
say, no more money--that this is going to solve this problem, 
it is just going to get worse, because I talk to people day in 
and day out in my district in my office about the children that 
are afraid--that they have a father or they have a mother 
taking care of a child in El Salvador or in Guatemala or in 
Honduras, and they have no option. No option whatsoever, 
because it is run by thugs.
    These districts--these barrios are run by thugs. So when 
they take off--when somebody gives them some money to take off 
to come to America, they see a savings for their families.
    So, you know, I do not understand where this policy is 
coming from. It is just myopic. It is just putting blinders on. 
And you know what? We are going to pay the price years down the 
line because we are paying the price now of our policies years 
ago where we did not focus on what's going on. And in terms of 
China, they just see an opportunity.
    I just read an article where the Chinese bought a piece of 
property in Panama where they want to become the Amazon of the 
Western Hemisphere. I read another article on what they did to 
Ecuador. Eighty percent of the oil in Ecuador that is exported 
is taken by the Chinese at a lower price and they sell it in 
the market because of the deal that they cut to build all these 
dams and all these things.
    They built a dam in Ecuador that has cracks in it. They 
built it next to a volcano. I mean, it is just incredible the 
things that go on there and we are letting the Chinese go in.
    I had a dinner with one of the presidents of a university 
in Colombia. He tells me that in his university the second most 
foreign language that is studied is Mandarin. Obviously, 
English is still the first.
    So we have to wake up because before it is over--before we 
know it, it is going to get worse, and these policies of, you 
know, beating up on these people, they are a victim, you know.
    I came to America because it was the land of the free. I 
came at the age of 11, and it has always been in the mind of my 
parents, my relatives, everything else that we are still the 
country of the free and the country of opportunity.
    So I do not know where this policy is going. I hated to see 
it being so politicized just because you want to buildup your 
base and you want you build your support and there's an 
election coming up.
    We just better wake up, and I really do not have a 
question. I have another meeting. And I thank you for being 
here. Always nice to see a Jersey girl come before us, you 
know, and I apologize if I am, you know, too strong.
    So do you want to say anything, Ambassador?
    Ms. Jacobson. Thank you. The only thing I would say is I do 
agree that one of the things we did, all of us that served in 
government or before, the wars ended in Central America and we 
all saw a peace dividend and we did not think as much as we 
needed to about young men with weapons in Central America and 
no jobs to replace that, and we closed down missions and we 
reduced programs.
    And Roger is absolutely right. You know, just like the drug 
problem has supply and demand issues, so does migration. Yes, 
migrants are coming. They are also being manipulated by people 
who tell them they can get in even if they can't, and the 
smuggling has to be stopped.
    But you got to work on both ends of this problem. It is not 
going to end unless we work on the root causes not sustainably.
    Mr. Sires. Ambassador?
    Mr. Noriega. I know your time has gone over.
    Mr. Sires. That is all right.
    Mr. Noriega. But just make one comment.
    Mr. Sires. The chairman is a friend of mine.
    Mr. Noriega. Mr. Chairman, I am not surprised to see the--I 
am not surprised to see the remarkable bipartisan commitment to 
these programs, a recognition by people who understand these 
programs, who visit and see for themselves the benefits.
    I would hope that you would work together to appeal to 
Secretary of State Pompeo and others--Vice President Pence, who 
has paid some attention to the region--that the president needs 
to do--to reconsider.
    We certainly can't just scrap these programs for the year 
and then start the next fiscal year. It is an absolutely 
unmanageable situation. Our diplomats there without the tools 
they need to do their job--it is an unmanageable situation.
    So I would hope that you could communicate with these 
people directly in a bipartisan way, the highest levels, both 
House and Senate, with the president to, you know, press upon 
them the need to reconsider his decision.
    Chairman Engel. Well, good advice. Thank you.
    Mr. Chabot?
    Mr. Chabot. Thank you very much, Mr. Chairman. This is a 
very interesting hearing and I agree, and I've listened closely 
to comments on both sides of the aisle here and I think--for 
what they're worth, I think you are all right. I think the 
witnesses are all right here, too. This is extremely 
frustrating. I think it is for the president as well--one of 
these on the one hand, on the other hand things.
    I think the president realizes that we have sent a lot of 
foreign down to a number of these countries, particularly in 
Central America, and there is a--more or less supposed to be an 
agreement that the money goes down there, it goes to improve 
conditions there, help law enforcement actually enforce their 
laws.
    It should assist us in reducing illegal immigration, which 
is one of the top promises that the president has made to 
actually do something about it. Others have talked about it.
    He is really trying to do something about it and I think 
that--I think that is commendable that the president is trying 
to do something.
    However, the money apparently either hasn't been 
effectively utilized. The caravans are still happening and I 
think the president thinks that we are being, you know, used as 
a sucker in this thing.
    You know, it should be a cooperative effort. There should 
be good faith. When we send them money it should be being put 
to good use and I think the president's mind set is more--at 
this point, he's frustrated. It's kind of tough love, and I 
understand that.
    I do tend to think that we ought to continue to work with 
these nations to assist them in improving the conditions that 
cause parents to want to send their young people up here to get 
away from the cartels and the drug gangs where it is my 
understanding that literally their lives are threatened and 
oftentimes they are physically harmed or killed if they do not 
cooperate with the drug gangs.
    And so it is understandable that they would want to get 
their kids out of--away from that sort of thing. On the other 
hand, how long does this go on where these countries do not 
cooperate in, for example, stopping the cartels? There ought to 
be--excuse me, stopping the caravans?
    There ought to be some mechanism that we can work on with 
them to at least cease these major caravans from continuing to 
come to our southern border and Mexico has been sometimes 
somewhat cooperative but mostly not cooperative. They could 
stop by stopping the caravans from entering into their southern 
border. But they haven't been particularly helpful there.
    But it is very frustrating. I have been to Guatemala and 
Honduras and talked to various groups there and in the very 
near future I am going to be in El Salvador and Nicaragua also 
and talk to people down there on the ground.
    But it is frustrating and I--again, I completely understand 
the president's mind set here and I sympathize with it. I do 
not necessarily agree with it 100 percent. I do not think I 
would say, let us cut it off altogether right now. But I am 
getting closer and closer to that if these countries do not 
cooperate.
    So in espousing that frustration, I see some nodding of 
heads on the panel there. So I will just open it up and ask you 
to comment in any way that you see fit.
    Ambassador Noriega, do you want to go first?
    Mr. Noriega. Yes. Before you came in, I made the point 
that, obviously, the president is reacting to the fact that the 
number had surged to, roughly, 100,000 in March on the 
Southwest border up from 70,000 and it is a fact that the 
smugglers are gaming our system.
    And so but the decision to cutoff aid does not hit the 
smugglers. Matter of fact, some of our aid is to dismantle the 
smuggling operations. A lot of what we do in terms of law 
enforcement and anti-gang work is precisely to go after the 
smuggling organizations.
    And so there's another issue and that is on the asylum 
claims. You know, every two or 3 months I, on a pro bono basis, 
do testimony before judges on asylum cases.
    Some are better than others, quite frankly, but a good 
number of these people clearly do not have a well-founded fear 
of persecution and they are here for economic reasons.
    But they understand that because we have such a backlog in 
the handling of the asylum cases that if they do an asylum 
claim by law we just sort of let them go and they're asked to 
call back.
    Now, if you can reduce the amount of time for having a 
hearing, you have a better chance of them showing up and then 
you deport the people who are ineligible.
    One of the recommendations that the Migration Policy 
Institute Andrew Selee has made is allowing CIS--Immigration 
Services--asylum officers to make those determinations so we 
would reduce the backlog and you get an immediate response and 
you start to turn these people back.
    You know, we are not hard-hearted people by any means. But 
we have to be sort of hard-headed when you think of millions 
more Central Americans who are ready to pay $5,000 a person. 
They are moving as a family unit to get on a bus to come here 
because the smugglers have commercialized the caravans.
    Mr. Chabot. Thank you.
    Mr. Chairman, my time has expired. But if I could just say 
we absolutely have to in a bipartisan manner change this 
ridiculous asylum policy that we have now where people can come 
up.
    They are told by the cartels the magic words to say. They 
say it, then they're cited to court, you know, a year, 2 years 
down the road. They disappear into the population, never come 
back for their hearing and then they're just here. We have to 
do something about that.
    Chairman Engel. Thank you, Mr. Chabot.
    Now I am going to call on Mr. Deutch. But we have had votes 
on the floor so we could either finish before or we could come 
back, whatever----
    Mr. Deutch. I will be quick.
    Chairman Engel. OK.
    Mr. Deutch. I will dispense with the statement I was going 
to make and just ask--Mr. Chabot raises, I think, fairly 
succinctly the way this argument is playing out--that we are 
just--the president is just administering some tough love--that 
we are tired of being played the sucker.
    To the points that you made earlier, what would your 
message be? What would leadership look like here that 
recognizes that we are not cutting off aid that's going to 
governments, as you have all pointed out.
    We are cutting off aid that actually benefits us and our 
security and improves the lives of people on the ground. What 
should be done, aside from not cutting off the aid? What would 
leadership look like in the region?
    What would it look like if the president said, I need 
everyone around the table who can make some commitment to help 
address this situation? Who would be at the table and what 
should be discussed?
    Ms. Jacobson. Well, Congressman, I think one of the most 
important things is they need to discuss governance and they 
need to make commitments to governance, which is one of the 
things we demand of those leaders in the region, right, and 
that means they need to focus on greater tax--income from tax 
evasion so they have funds to support their security forces.
    They need to work with us on these specialized units which 
help both get rid of and dismantle the smuggling operations and 
help us fight gangs and narcotics trafficking.
    We need to focus on the things that work best at both ends 
and we need to do it in such a way that it is transparent to 
the people in their countries and there is no graft, which we 
do well where we do it.
    We also need to work with the private sectors in those 
countries, which have been lamentably slow in committing to 
being good citizens on security issues. When President Uribe in 
Colombia started with Plan Colombia, he told his private 
sector, you have to pay to make the country safe--you who have 
funds need to pay your taxes and be part of it.
    We haven't seen that in Central America. There was one 
effort in Honduras.
    The other thing I just want to mention is I am sorry to 
have to say this but these countries cannot stop people from 
leaving whether in caravans or not. What that looks like is a 
Berlin Wall and I do not think that is what we are asking them 
to do.
    It is people's right to leave their country whether we like 
it or not. Mexico just recently announced they are going to put 
more people at the Isthmus of Tehuantepec, the narrowest point. 
Those are the kinds of things we need to see.
    Mr. Deutch. And if--and if we--for our other panellists, if 
we want to have those kinds of discussions which would actually 
be fruitful and would help us address this, is it--is it easier 
or harder for us to convene those meetings when we are cutting 
off aid and when we are talking about ending assistance 
altogether and closing our border?
    Mr. Kerlikowske?
    Mr. Kerlikowske. I would certainly tell you that during my 
time, we saw incredible success with Mexico. INAMI, which is 
their immigration system, and they do not have enforcement 
powers--they do not carry firearms, et cetera, yet they put 
huge numbers of resources on the border with Guatemala.
    Every one of us I think can remember those pictures of the 
trains, la bestia, with thousands of people hanging on the 
sides and the roofs. They ended that. They stopped that.
    They did a variety of important work in cooperation and 
they exchanged a lot of good information and, frankly, treating 
those individuals in the higher levels of government with the 
greatest courtesy and respect I think went a long way to doing 
diplomacy and then creating a better system.
    Ms. Jacobson. So the short answer is harder.
    Mr. Deutch. Harder. And just the last thing I would say, I 
want to just--I can't let Mr. Chabot's comments about asylum 
seekers simply sent out there.
    The idea that the people who are willing risk their lives 
to travel to our country, who have a right to claim asylum for 
fear of persecution in their own country is to suggest that 
somehow all of them are coming here because they have been--
they have been tricked or because they are somehow being used 
is not only unfair to them and their families and the risks 
that they are taking to be here but it actually challenges the 
very nation of the kind of country that we have and want to 
have, and I am so grateful for the service that all three of 
you have provided and for your testimony today.
    Chairman Engel. Thank you, Mr. Deutch.
    We are getting down to the bottom so I am going to call on 
Mr. Yoho for 2 minutes and then Mr. Cicilline for 2 minutes, 
and we'll try to make it before the votes are on.
    Mr. Yoho. Thank you, Mr. Chairman.
    Chairman Engel. We do not have to have them come back. We 
will have you come another time. Thank you.
    Mr. Yoho. I would love for you to come back, but I 
understand.
    Ambassador, Jacobson, you were saying how the root cause of 
migration--and I think we know this--lack of jobs, violence, 
and everything goes on.
    I am a veterinarian and what we do is we look at a sick 
animal, we do a diagnostic and then we formulate a treatment 
plan. We treat it, but if the treatment does not work, we have 
got to change the treatment or reassess the situation.
    And since 2008 to 2018, we have put $5.75 billion into 
Central America--a minimum of that--and then we have put $2 
trillion on the War on Drugs since it started, $2 billion in 
Mexico alone. Yet, Mexico is supplying 93 percent of the heroin 
coming into the United States. Mexico is.
    You can't do that without government involvement and, of 
course, we saw the allegations that President Pena was bribed 
$100 million by El Chapo.
    You can't have legitimate--the narcotrafficking has become 
a legitimized business and it has been accepted and what they 
have done is they have run their money to legal businesses that 
is funnelled--they are funnelling this illegal money that is 
coming here.
    And so I am not opposed to what President Trump is 
proposing because what we have done is not working. And so 
without being able to go into this further, I think we need to 
look at how we are dealing with this and it has to be dealt 
differently.
    It is a decay on all societies and it is happening here and 
it is not benefiting the people of any of those countries and 
it is putting men at risk but it puts our country at risk and 
it weakens our economies.
    I am not asking for a response. It is just something we 
need to look at.
    And one last thing. Ninety plus percent of all Latin 
American countries are Christian nations, as we are. I do not 
think we are following the Christian doctrine of treat others 
as you would treat ourselves and I think we need to look at all 
that, and I yield my time.
    Thank you, Mr. Chairman.
    Mr. Cicilline [presiding]. Thank you, Mr. Yoho.
    I now recognize myself for 5 minutes. I want to thank the 
chairman of our committee for convening this and the ranking 
member, and thank the witnesses for their extraordinary 
testimony and for their service to our country.
    We are here today to discuss the importance of U.S. 
assistance to Central America, an issue on which there is broad 
bipartisan support across this committee and across the 
Congress.
    Through assistance and development programs the United 
States is able address the root causes of instability and the 
drivers of migration to the United States. These are programs 
that tackle corruption, promote education, foster democracy, 
and counter violence.
    They represent an effective investment on the part of the 
United States to promote a more stable, more democratic, and 
more prosperous hemisphere.
    In fact, the vice president himself noted their importance, 
and I quote, ``To further stem the flow of illegal immigration 
and illegal drugs into the United States, President Trump 
knows, as do all of you, that we must confront these problems 
at their source. We must meet them and we must solve them in 
Central America and South America,`` end quote.
    Those are the words of the vice president. Yet, this 
administration or actually I can't even say the administration 
because this is really the president acting on a whim, yet this 
president rashly announced an end to all aid--and end to 
programs that help stem migration because he wants to end 
migration.
    As is typical, this represents the president's penchant for 
making up policy on the fly, leaving his own administration, 
our diplomats, and other countries surprised, confused, and 
scrambling to undo the damage.
    I would like now to enter into the record a statement from 
Plan International USA based in Rhode Island, which notes, and 
I quote, ``The administration must begin to view foreign 
assistance for what it is--a way to improve conditions and 
strengthen institutions within foreign countries while also 
enhancing our own security,`` end quote.
    Without objection, it is in the record.
    [The information referred to follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cicilline. And also I would like to enter into the 
record an op-ed by Ambassador Jacobson from the New York Times 
in which she describes the disorder of the Trump administration 
as seen in her role as U.S. Ambassador to Mexico.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cicilline. It highlights the alarming disorganization, 
lack of foresight, and baffling ignorance of the Trump 
administration, and the decision to end aid in Central America 
is, sadly, par for the course which is why, in my view, 
Congress must exercise oversight.
    This country will never be able to address immigration if 
we do not address the root drivers of irregular migration. 
Those who immigrate to our great country have in many instances 
experienced unbearable hardships.
    Our assistance programs help to address the underlying 
causes of these hardships. Cutting them would be cruel, 
shortsighted, and counterproductive and I believe that Congress 
must take clear bold action to ensure key assistance programs 
are not gutted just because of a Presidential mood swing.
    So I want to begin my question, as I mentioned, development 
organization called Plan USA is based in my district and has 
worked in Central America for decades.
    Their field work and their research demonstrate the value 
of U.S. assistance to the region for improving people's lives 
and preventing migration.
    In fact, a Plan survey found that 59 percent of at-risk 
youth in El Salvador, as an example, planned to migrate because 
of violence and lack of opportunity.
    So Plan runs a youth employment program that has trained 
thousands of youth for jobs with dozens of companies akin to 
the excellent programs run by USAID.
    Isn't that fundamentally a better way to address this 
problem--a program like that, Ambassador Jacobson?
    Ms. Jacobson. It absolutely is. I mean, I think that those 
kinds of programs are critical. While, obviously, you still see 
migrants coming and, in fact, right now you are seeing larger 
numbers, so you can argue over how effective they are.
    But the truth is over the last couple of years we do know 
what works. Plan USA knows what works. What we need to do is 
expand their reach and demand that those governments replicate 
those programs, and I would say to Representative Yoho who 
talked about things not working, it is true that the smugglers 
and the drug traffickers are always going to be more agile than 
governments.
    So we are constantly going to have to adapt our programs 
and that is exactly what we have done over the past few years.
    We know certain things work and others were abysmal 
failures. But the programs that we are looking at right now 
were only just getting started. And so to say that they have 
failed is really way too preliminary without a significant 
continuation of funding and talking with partners like those 
NGO's who know what works.
    Mr. Cicilline. You know, and I think in addition to that, 
just the very announcement of these proposed cuts has already 
damaged U.S. aid programs and really our credibility in Central 
America.
    PEPFAR has canceled its annual planning meeting for the 
Western Hemisphere. USAID has frozen a number of activities and 
one person in the region even described it as government 
shutdown mode.
    So the idea--the difficulties that come with restarting it 
when organizations have begun to, you know, make adjustments 
for this pronouncement is significant.
    Two other quick questions, because I know my time has run 
out, but I am in charge so I can have a couple more minutes.
    On March 28th, just before President Trump announced that 
he was cutting off aid to Central America, recently resigned 
Secretary of Homeland Security Secretary Kirstjen Nielsen 
announced what she called a historic agreement with our 
partners in Central America to address the root causes of 
migration.
    In other words, the U.S. Government got agreement from 
countries in the region to what the administration wanted and 
the president responded by trying to punish them. It is sort of 
baffling.
    And my question really is what does the president's 
decision to cutoff aid to Central America, despite strong 
support from member of his own administration including his own 
vice president, say about his approach to foreign policy and 
our ability to kind of have a coherent repose to this crisis 
and what does it say to the leaders in the region who are 
trying to figure this out?
    I do not know who might try to answer that.
    Ambassador?
    Mr. Noriega. I do not think anybody thinks that this was a 
well-reasoned decision or announcement. Roberta, as assistant 
secretary of State, and I in that same role did annual reviews 
of all of our projects with USAID, what is effective, what is 
working, what is not, are we prepared to defend them before the 
secretary of State, arm wrestle Members of Congress and their 
staff, accept the kind of oversight that really enriches the 
programs and we did this because we believe that we are 
absolutely convinced that this sort of investment is in our 
interest.
    I will say one thing that I am concerned is we are sort of 
treating the symptoms of countries that are in very serious 
trouble because their basic institutions have been undermined 
by transnational organized criminal organizations that can 
bribe or bully or murder to get whatever they want, and this 
is--transnational organized crime is a $2.2 trillion.
    That is the equivalent of Mexico's GDP, and to suggest that 
the country of El Salvador, Honduras, and Guatemala are on 
their own when they are to a certain extent victims of this 
demand or illicit drugs I think is not--is not reasonable.
    We need the partnerships. We also need, as I said, to do 
more than treat symptoms. We need economies growing again. We 
need governments tackling corruption, adopting the right 
economic policies.
    We saw a country of El Salvador, for example, go from civil 
war to investment grade in five or 6 years without turning to 
multilateral development banks for the resources.
    It can be done with the right policies, with the political 
will. But we have to be good partners to accompany that 
process.
    Mr. Cicilline. Thank you.
    Mr. Kerlikowske. During my 8 years in the administration we 
do planning and we did not do policy on the fly or on the whim. 
There was an incredible amount of cooperation and backup and 
support and work that was done.
    And also I think all of us worked very hard to break down 
silos between the State Department and USAID and CBP or DHS and 
on and on, and it took a long time and it was important, and it 
was important also that we were not surprised or that we found 
out about new policy by reading it in the paper or hearing it.
    I did not follow Twitter very well but--and so when I look 
at the success in Mexico and I look at those reductions, I look 
at the success in those three Central American countries which 
I wish I would have had a little time to explain to Member 
Yoho. But we have made great progress.
    And as Roberta also mentioned, these programs are in their 
infancy. I mean, give them a chance to flourish. And then if 
they are not working, you know, let us say they are not working 
and we need to move on.
    Mr. Cicilline. Right. Thank you.
    And my final question, you know, there has been a lot of 
discussion in this hearing about the level of assistance and us 
being taken for suckers and what we are spending.
    I think it is important to note that our foreign assistance 
to the Northern Triangle makes up just .00035 percent of the 
U.S. Federal budget and provides a significant return on 
investment by improving security and economic opportunity in 
the region.
    This small investment has had a catalytic effect. When the 
U.S. committed $420 million to the region in Fiscal Year 2017, 
Honduras, Guatemala, and El Salvador committed to more than ten 
times that amount--$5.4 billion--to support investments in 
their people and to strengthen public safety.
    Given the administration's focus on burden sharing, I would 
love to hear your views with respect to the proposal to cutoff 
U.S. assistance in the region and whether it would in fact end 
up undermining Northern Triangle countries' willingness to 
continue to make the kinds of investments they have made in 
light of the U.S. investment.
    Ambassador Jacobson?
    Ms. Jacobson. Representative Cicilline, I think that is an 
extremely important point. What I mentioned earlier about 
multiplier effect of our assistance, there is no place that I 
know of in the Western Hemisphere where we have put in more 
money than the local government.
    In Mexico, I think it was $17 or $18 for every one of ours. 
In Central America, you noted--in Colombia, certainly, the 
Colombians dedicated massive resources to this.
    And what happens when we are unreliable, when we cut aid, 
is some of those programs do not continue, because what we are 
signalling is maybe it is not such a priority even through the 
president, obviously, is speaking out of frustration and 
wanting to do more.
    These are hard programs. They are hard politically for 
these leaders. They are--they are working to get at entrenched 
interests both economic and political as well as security, if 
you will.
    And so to take those risks without our support, without our 
backing, becomes harder and harder. It is--the chances grow 
slimmer that they will do things we want without our moral 
backing as well as financial backing.
    But we have also seen that we get much weaker response from 
the local private sector--economic elites who can afford to 
contribute and who say, well, if the U.S. is not going to be 
supporting this we are not going to bother.
    So yes, there is a multiplier effect in our cuts.
    Mr. Cicilline. Yes, which is why I hope this hearing 
communicates to the White House the urgency of reconsidering 
their position because these investments are not acts of 
charity.
    They are investments in the safety and security of the 
world, which is in the national security interests of the 
American people. And this is about getting to the root of a 
problem, which is presenting challenges to our own country and 
there is bipartisan understanding that your testimony today 
helped reaffirm that, and I, again, will end where I began, by 
thanking you for your testimony today and for your 
extraordinary service to our country.
    And with that, today's hearing is concluded and the 
committee stands adjourned.
    [Whereupon, at 10:57 a.m., the committee was adjourned.]

                                APPENDIX

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD FROM COMMITTEE MEMBERS

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
